No. ______
IN THE

Supreme Court of the United States
___________________________________________________________
DAVID A. BRIDGEWATER,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
____________________________________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Seventh Circuit
______________________________________________________________
PETITIONER’S APPENDIX
______________________________________________________________

ANGELA J. HILL
Counsel of Record
Office of the Federal Public Defender
Southern District of Illinois
401 West Main Street
Benton, Illinois 62812
(618) 435-2552
angela_hill@fd.org
Counsel for Petitioner

INDEX TO APPENDIX
Exhibit 1 — United States Court of Appeals for the Seventh Circuit Opinion
(Apr. 28, 2021) ................................................................................ 1a
Exhibit 2 — United States District Court for the Southern District of Illinois,
Order (Jul. 17, 2020) .................................................................... 23a

Case: 20-2413

Document: 30

Filed: 04/28/2021

Pages: 22

In the

United States Court of Appeals
For the Seventh Circuit
____________________
No. 20-2413
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
DAVID A. BRIDGEWATER,
Defendant-Appellant.
____________________
Appeal from the United States District Court for the
Southern District of Illinois.
No. 4:19-cr-40012-SMY-1 — Staci M. Yandle, Judge.

____________________
ARGUED JANUARY 15, 2021 — DECIDED APRIL 28, 2021
____________________
Before SYKES, Chief Judge, and WOOD and HAMILTON, Circuit Judges.
HAMILTON, Circuit Judge. In his plea agreement, defendant
David Bridgewater waived the right to seek any modiﬁcation
of his sentence. Nonetheless, in light of the current pandemic,
Bridgewater ﬁled in the district court a motion for compassionate release under the First Step Act of 2018, as codiﬁed in
18 U.S.C. § 3582(c)(1)(A). He seeks release based on medical
conditions that he says make him vulnerable to serious illness

1a

Case: 20-2413

Document: 30

Filed: 04/28/2021

2

Pages: 22

No. 20-2413

or death from the spread of COVID-19 in prison. Bridgewater
argues that his plea waiver does not bar this motion because
the waiver does not cover compassionate release, was not voluntary, and, in any event, should be unenforceable under contract-law principles of public policy and unconscionability.
The district court rejected these arguments. We dismiss the
appeal. Bridgewater’s knowing and voluntary waiver of the
right to seek compassionate release under the First Step Act is
enforceable.
I. Factual and Procedural Background
On January 30, 2019, Bridgewater was charged with one
count of attempted enticement of a minor in violation of 18
U.S.C. § 2422(b) (Count One) and one count of soliciting an
obscene visual depiction of a minor in violation of 18 U.S.C.
§ 2252A(a)(3)(B) (Count Two). On March 19, 2019, he pleaded
guilty to Count Two pursuant to a plea agreement. The government agreed to dismiss Count One, which would have carried a mandatory minimum ten-year sentence, and to recommend a minimum ﬁve-year sentence for Count Two. The district court approved the plea agreement on March 19, 2019.
Most relevant to this appeal, Bridgewater’s plea agreement included the following waiver of his rights to appeal or otherwise challenge his conviction and sentence:
[I]n exchange for the recommendations and
concessions made by the United States in this
Plea Agreement, Defendant knowingly and voluntarily waives the right to seek modiﬁcation of or contest any aspect of the conviction or sentence in any
type of proceeding, including the manner in
which the sentence was determined or imposed,
that could be contested under Title 18 or 28, or

2a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

3

under any other provision of federal law, except
that if the sentence imposed is in excess of the
Sentencing Guidelines as determined by the
Court (or any applicable statutory minimum,
whichever is greater), Defendant reserves the
right to appeal the substantive unreasonableness of the term of imprisonment.
Dkt. 32, at 7–8 (emphasis in original).
At sentencing, the district court chose to impose an aboveguideline sentence of 78 months, plus seven years of supervised release. Bridgewater appealed his sentence, relying on
the appellate waiver’s exception for an above-guideline sentence. We aﬃrmed his sentence. United States v. Bridgewater,
950 F.3d 928, 929 (7th Cir. 2020). Bridgewater is currently imprisoned at the Forrest City Federal Correctional Institution
in Arkansas.
On April 30, 2020, Bridgewater ﬁled a motion for compassionate release under 18 U.S.C. § 3582(c)(1)(A)(i), which allows a district court to reduce a defendant’s sentence for “extraordinary and compelling reasons.” Bridgewater asked the
district court to release him for time served due to his medical
conditions, which he says present “extraordinary and compelling” reasons for release because they make him especially
susceptible to serious illness or death from the COVID-19 outbreak at Forrest City.
Before 2018, only the Bureau of Prisons itself could have
ﬁled such a motion on Bridgewater’s behalf. In 2018, in response to longstanding criticism over the Bureau’s minimal
use of compassionate release, Congress enacted § 603(b)(1) of

3a

Case: 20-2413

Document: 30

Filed: 04/28/2021

4

Pages: 22

No. 20-2413

the First Step Act of 2018 to expand the process to allow defendants to ﬁle such motions directly with a district court so
long as they ﬁrst give the Bureau 30 days to act on their requests. See Pub. L. 115-391, 132 Stat. 5194, 5239 (Dec. 21, 2018),
codiﬁed at 18 U.S.C. § 3582(c)(1)(A); see also Dep’t of Justice,
Oﬃce of the Inspector General, The Federal Bureau of Prisons’
Compassionate Release Program (Apr. 2013), at 11 (concluding
in 2013 that the Bureau “does not properly manage the compassionate release program, resulting in inmates who may be
eligible candidates for release not being considered”). Bridgewater invoked this new process to seek compassionate release.
The district court denied Bridgewater’s motion on two
separate grounds. The court ﬁrst concluded that, in his plea
agreement, Bridgewater voluntarily waived his right to seek
compassionate release under the First Step Act and that his
waiver is enforceable. The court then concluded that, even if
Bridgewater had not waived his right to seek compassionate
release, his motion would fail on the merits. The court found
that the sentencing factors under 18 U.S.C. § 3553(a) weighed
against Bridgewater’s release, even assuming that he faced
heightened health risks from COVID-19. Judge Yandle explained that reducing Bridgewater’s term of imprisonment
from six and a half years to less than one year would not reﬂect the seriousness of his oﬀense, promote respect for law,
foster speciﬁc deterrence, or protect the public from his potential future crimes. Bridgewater appeals the denial of his
compassionate release motion. We have jurisdiction under 18
U.S.C. § 3742(a)(1) and 28 U.S.C. § 1291.

4a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

5

We dismiss the appeal based on the district court’s ﬁrst
reason—waiver. Due to the pandemic, we have recently reviewed denials of many motions seeking compassionate release under the First Step Act. 1 We have not yet addressed the
waiver issue presented in this case. In his plea agreement,
Bridgewater voluntarily waived “the right to seek modiﬁcation of or contest any aspect of the conviction or sentence in
any type of proceeding.” We hold that this waiver included
Bridgewater’s right to seek compassionate release under the
First Step Act and that his knowing and voluntary waiver of
that right in an approved plea agreement is enforceable. We
dismiss this appeal without reaching the merits of Bridgewater’s motion.
Part II explains why Bridgewater’s waiver included his
right to seek compassionate release. Part III brieﬂy explains
why his waiver was knowing and voluntary. Part IV addresses Bridgewater’s unenforceability arguments. After setting the legal landscape in Parts IV-A and IV-B, we explain in
Part IV-C why Bridgewater’s public policy and unconscionability arguments are not persuasive.
II. Scope of the Waiver
We review de novo the enforceability of an appellate waiver
in a plea agreement. United States v. Chapa, 602 F.3d 865, 868
1

For cases reviewing pandemic-related compassionate release motions
under the First Step Act, see, e.g., United States v. Sanders, 992 F.3d 583 (7th
Cir. 2021); United States v. Joiner, 988 F.3d 993 (7th Cir. 2021); United States
v. Williams, 987 F.3d 700 (7th Cir. 2021); United States v. Saunders, 986 F.3d
1076 (7th Cir. 2021); United States v. Sanford, 986 F.3d 779 (7th Cir. 2021);
United States v. Gunn, 980 F.3d 1178 (7th Cir. 2020). We have also recently
issued numerous non-precedential orders affirming the denial or dismissal of such motions.

5a

Case: 20-2413

Document: 30

Filed: 04/28/2021

6

Pages: 22

No. 20-2413

(7th Cir. 2010). We generally enforce an appellate waiver if its
terms are express and unambiguous and the record shows
that it was knowing and voluntary. Id. In determining the
scope of a waiver, we “interpret the terms of the agreement
according to the parties’ reasonable expectations and construe
any ambiguities against the drafter—the government—and in
favor of the defendant.” United States v. Woods, 581 F.3d 531,
534 (7th Cir. 2009), overruled on other grounds, United States
v. Taylor, 778 F.3d 667 (7th Cir. 2015). This approach ensures
that waivers are not applied loosely in ways that unnecessarily limit review and “‘discredit’ the legitimacy of the sentencing process.” United States v. Ready, 82 F.3d 551, 556 (2d
Cir. 1996), quoting United States v. Mezzanatto, 513 U.S. 196,
204 (1995).
Here, the “express and unambiguous” text of Bridgewater’s waiver conﬁrms that it extends to compassionate release. Bridgewater waived “the right to seek modiﬁcation of
… any aspect of the … sentence.” Compassionate release under 18 U.S.C. § 3582(c)(1)(A) is clearly a form of sentence modiﬁcation. The heading to § 3582(c) reads “Modiﬁcation of an
imposed term of imprisonment,” and compassionate release
is just one of several modiﬁcations authorized in that subsection.
Bridgewater’s waiver was written broadly to reach his
rights to appeal and to bring a habeas corpus petition under
28 U.S.C. § 2255, as well as his right “to seek modiﬁcation of
or contest any aspect of the conviction or sentence in any type
of proceeding.” The waiver applies to proceedings “under Title 18 or 28, or under any other provision of federal law … .”
The waiver’s broad language and reference to “modify”
make clear that the waiver was not limited to direct appeals

6a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

7

and § 2255 petitions. Motions to modify sentences exhibit “a
fundamentally diﬀerent character than an appeal or collateral
attack.” United States v. Monroe, 580 F.3d 552, 557 (7th Cir.
2009). Sentence modiﬁcation motions do not “seek to impugn
the district court's rationale, nor … claim that the district court
erred in any way by imposing” the defendant’s sentence. Id.
They instead ask the court to impose a new sentence for reasons unrelated to the legality of the original sentence. Bridgewater waived his right to seek modiﬁcation of his sentence in
2019, after the First Step Act gave incarcerated people the
right to seek modiﬁcation without the support of the Bureau
of Prisons. In other words, this type of modiﬁcation proceeding was known and available when Bridgewater agreed not
to use it. 2 Accordingly, Bridgewater’s waiver, barring him
from “seek[ing] modiﬁcation of … any aspect of [his] … sentence,” applies to his right to seek compassionate release under 18 U.S.C. § 3582(c)(1)(A).
III. Knowing and Voluntary Waiver
The record establishes that Bridgewater knowingly and
voluntarily entered into this plea agreement with this broad
waiver. As noted, Bridgewater and his attorney were on notice of the rights he might be waiving under the First Step Act.
His Rule 11 plea colloquy conﬁrmed that he understood his
waiver:
2

This case is therefore distinguishable from United States v. Glasper,
No. 3:11-CR-30053, 2020 WL 6363703 (S.D. Ill. Oct. 29, 2020), where the
district court found that an appellate waiver did not foreclose the right to
seek compassionate release because it was entered into before the First Step
Act was enacted. We express no view on the issue in Glasper, where an
appeal is pending. Bridgewater signed his plea agreement in 2019, after
the First Step Act took eﬀect.

7a

Case: 20-2413

Document: 30

Filed: 04/28/2021

8

Pages: 22

No. 20-2413
Q: All right. And in terms of, ﬁnally, waiving
your appeal rights. [The prosecutor] mentioned
certain waivers that are part of the Plea Agreement. Did you speciﬁcally have a chance to discuss those waivers with your attorney … so that
you understand what rights to appeal you are
actually waiving in exchange for the agreement?
A: Yes ma’am.

The entire Rule 11 colloquy, including that exchange about
the waiver itself, was enough to conﬁrm that Bridgewater’s
plea, including the waiver, was knowing and voluntary. See
United States v. Jones, 381 F.3d 615, 619 (7th Cir. 2004) (“Voluntariness of a guilty plea is ensured by a court's compliance
with Federal Rule of Criminal Procedure 11.”).
The change of circumstances brought on by the pandemic
does not render Bridgewater’s earlier waiver unknowing or
involuntary. “At worst, he did not fully appreciate that he
might wish to change his mind later … . Yet, such is the risk
with plea-bargaining and waiver.” United States v. Alcala, 678
F.3d 574, 580 (7th Cir. 2012) (aﬃrming waiver of defendant’s
right to withdraw his plea agreement); see also United States
v. McGraw, 571 F.3d 624, 630–31, quoting United States v.
Bownes, 405 F.3d 634, 636 (7th Cir. 2005) (“In a contract (and
equally in a plea agreement) one binds oneself to do something that someone else wants, in exchange for some beneﬁt
to oneself. By binding oneself one assumes the risk of future
changes in circumstances in light of which one’s bargain may

8a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

9

prove to have been a bad one. That is the risk inherent in all
contracts.”). 3
IV. Compassionate Release Waivers in Approved Plea Agreements
Are Enforceable
We now turn to Bridgewater’s most substantial attacks on
his waiver. He argues that even if he knowingly and voluntarily waived his right to seek compassionate release under
the First Step Act, the waiver should not be enforced because
it is contrary to public policy and unconscionable. While we
respect the concerns that give rise to these arguments, we ultimately disagree. As an initial matter, it is unclear whether
contract law’s public policy and unconscionability doctrines
fully extend to plea agreements. Even if they do, we are convinced that an approved plea agreement that waives the right
to ﬁle compassionate release motions under the First Step Act
is not unenforceable on public policy or unconscionability
grounds.
We base this conclusion on two major premises. First, statutory rights are presumed to be waivable in plea agreements,
just as most constitutional rights are waivable. See United
States v. Mezzanatto, 513 U.S. 196 (1995). Second, compassionate release waivers are more defensible against public policy
3

It is true that contract law allows for some unusual and unpredictable
events to relieve a party of agreed obligations, such as through the doctrine of force majeure or so-called Acts of God. See generally Restatement
(Second) of Contracts 11 Intro. Note (Am. L. Inst. 1981). In contracts, parties may and often do bargain over the scope of such terms, and the more
general doctrine fills in the blanks when parties do not address them explicitly. Those doctrines, however, clearly do not apply here to relieve
Bridgewater of his obligations under the waiver term of his plea agreement, and he does not rely on them.

9a

Case: 20-2413

Document: 30

Filed: 04/28/2021

10

Pages: 22

No. 20-2413

and unconscionability challenges than § 1983 release-dismissal agreements, which the Supreme Court has held are generally enforceable. See Town of Newton v. Rumery, 480 U.S. 386
(1987).
A. Rights Presumed Waivable in Plea Agreements
Bridgewater’s argument runs up against the general principle that statutory rights are waivable in plea agreements, at
least where Congress has not signaled otherwise. The Supreme Court clariﬁed this presumption in Mezzanatto, where
it enforced a defendant’s voluntary waiver of a protection under Federal Rule of Evidence 410, which normally bars the
government from impeaching defendants with statements
made during plea negotiations. Mezzanatto had agreed to enter plea negotiations on the condition that—despite Rule
410—anything he said during the negotiation would be admissible to impeach him if his case went to trial. The plea discussions eventually broke down, and at trial the prosecution was
allowed to cross-examine Mezzanatto with statements he had
made during negotiations. The Ninth Circuit reversed, ruling
that Rule 410 is not waivable because its text does not expressly allow waiver.
The Supreme Court reversed, emphasizing that the circuit’s analysis was “directly contrary to the approach we have
taken in the context of a broad array of constitutional and statutory provisions. Rather than deeming waiver presumptively
unavailable absent some sort of express enabling clause, we
instead have adhered to the opposite presumption.” Mezzanatto, 513 U.S. at 200–01. The Court emphasized that defendants may waive even fundamental constitutional rights. Id. at
201, citing Ricketts v. Adamson, 483 U.S. 1, 10 (1987) (double
jeopardy defense); Boykin v. Alabama, 395 U.S. 238, 243 (1969)

10a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

11

(guilty plea waives privilege against compulsory self-incrimination, right to jury trial, and right to confront one’s accusers); Johnson v. Zerbst, 304 U.S. 458, 465 (1938) (Sixth Amendment right to counsel may be waived). The Court concluded
that the same presumption should apply to statutory rights
unless Congress says otherwise: “absent some aﬃrmative indication of Congress’ intent to preclude waiver, we have presumed that statutory provisions are subject to waiver by voluntary agreement of the parties.” Mezzanatto, 513 U.S. at 201.
The Court bolstered this conclusion by reference to Crosby
v. United States, 506 U.S. 255 (1993), and Smith v. United States,
360 U.S. 1 (1959), which showed that Congress knows how to
create non-waivable rights for the accused when it wishes.
Both cases addressed protections in the Federal Rules of
Criminal Procedure that limit when they can be waived. See
Crosby, 506 U.S. at 258–60 (text of Rule 43 provides that right
to be present at one’s own trial is waivable only when the defendant “is voluntarily absent after the trial has commenced”); Smith, 360 U.S. at 9 (text of Rule 7(a) provides that
indictment requirement “may be waived, but only in those
proceedings which are noncapital”). Mezzanatto explained
that the explicit limits on waivers in Rules 7(a) and 43 and the
history of the pertinent rights indicated an intent to preclude
waiver in other, unstated circumstances. 513 U.S. at 201. By
contrast, a rule’s complete silence as to waiver, Mezzanatto reasoned, should leave in place the general presumption that
statutory or rules-based rights are waivable. Id. at 201–02.
That description ﬁts the new statutory right to seek compassionate release.
Accordingly, we have enforced waivers of a broad array
of statutory rights by plea agreement, including appellate

11a

Case: 20-2413

Document: 30

Filed: 04/28/2021

12

Pages: 22

No. 20-2413

rights. See, e.g., United States v. Hare, 269 F.3d 859, 863 (7th
Cir. 2001); United States v. Feichtinger, 105 F.3d 1188, 1190 (7th
Cir. 1997) (“The right to appeal is a statutory right, and like
other rights—even constitutional rights—which a defendant
may waive, it can be waived in a plea agreement.”). We have
also enforced waivers of appeals “based on intervening Supreme Court decisions,” McGraw, 571 F.3d at 631, and “based
on the ineﬀectiveness of [] counsel at sentencing,” United
States v. Smith, 759 F.3d 702, 707 (7th Cir. 2014) (collecting
cases). The waivers enforced in McGraw and Smith, like the
waiver here, extended to circumstances that defendants probably could not foresee when signing their agreements.
B. Narrow Due Process Limits
The Due Process Clause of the Fifth Amendment places
some limits on waivers of rights in plea agreements. “A plea
agreement is a type of contract subject to contract law principles tempered by limits that the Constitution places on the
criminal process.” Chapa, 602 F.3d at 868, citing Bownes, 405
F.3d at 636. These constitutional limits do not invalidate the
waiver here.
For instance, waivers of the right to eﬀective counsel during the plea negotiation process are not enforceable because ineﬀective counsel undermines the voluntariness of the plea.
Hurlow v. United States, 726 F.3d 958, 965 (7th Cir. 2013) (“[A]
valid appellate waiver contained in a plea agreement does not
preclude a defendant’s claim that the plea agreement itself
was the product of ineﬀective assistance of counsel.”), quoting United States v. Hodges, 259 F.3d 655, 659 n.3 (7th Cir. 2001).
We have also suggested, but not held, that a plea agreement
might not be voluntary if the defendant waived the right un-

12a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

13

der Brady v. Maryland, 373 U.S. 83 (1963), to receive “exculpatory evidence of actual innocence” before pleading guilty. See
McCann v. Mangialardi, 337 F.3d 782, 787–88 (7th Cir. 2003)
(distinguishing evidence of actual innocence from impeachment evidence, which, under United States v. Ruiz, 536 U.S.
622 (2002), need not be disclosed during plea-bargaining to
ensure that guilty plea is knowing and voluntary). Similarly,
sentences that are based on race, United States v. Hicks, 129
F.3d 376, 377 (7th Cir. 1997), or that exceed statutory maximums, Feichtinger, 105 F.3d at 1190, may be challenged despite an otherwise valid appellate waiver.
None of these due process limits apply, however, to a
waiver of compassionate release under the First Step Act. Enforcing that waiver does not fundamentally infect the voluntariness of the plea because the extraordinary circumstances
that invoke compassionate release occur after sentencing.
They have nothing to do with misconduct during the plea negotiation process.
Moreover, unlike a waiver of appeal for a sentence based
on race or in excess of a statutory maximum, compassionate
release waivers serve legitimate ﬁnality and resource interests. See below, Part IV-C. Such waivers stop defendants only
from petitioning the district court directly, without approval
of the Bureau of Prisons. Defendants can still seek compassionate release through the original Bureau process, which
was the only available route for decades. It would thus be odd
if a defendant’s decision to revert back to his pre-2018 rights
violated the bare “minimum of civilized procedure.” See
United States v. Joseﬁk, 753 F.2d 585, 588 (7th Cir. 1985). That
would imply that the law governing the compassionate re-

13a

Case: 20-2413

Document: 30

Filed: 04/28/2021

14

Pages: 22

No. 20-2413

lease process until 2018 was and always had been unconstitutional. No one suggests that. Nor does the Constitution grant
or imply a right to seek or obtain from a court compassionate
release from an otherwise lawful sentence, outside of executive pardons and clemency.
It is also important to remember that even if a federally
incarcerated person cannot petition directly for compassionate release due to medical conditions, he may still directly
challenge any inadequate medical care he receives, or any
medically unsafe conditions of conﬁnement. See, e.g., Helling
v. McKinney, 509 U.S. 25, 33 (1993) (aﬃrming courts’ ability
under Eighth Amendment to enjoin unsafe conditions that
will likely aﬀect an incarcerated person’s health: “We have
great diﬃculty agreeing that prison authorities may not be
deliberately indiﬀerent to an inmate’s current health problems but may ignore a condition of conﬁnement that is sure
or very likely to cause serious illness and needless suﬀering
the next week or month or year.”); Fields v. Smith, 653 F.3d 550,
559 (7th Cir. 2011) (aﬃrming injunction against denial of therapy to certain incarcerated people); see also Carlson v. Green,
446 U.S. 14 (1980) (Bivens action for damages available where
federal oﬃcials violate Eighth Amendment through deliberate indiﬀerence to serious medical needs). Accordingly,
waiver of a right to seek compassionate release under the First
Step Act does not inherently violate any constitutional limits
on plea agreements.

14a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

15

C. Public Policy and Unconscionability
Bridgewater argues primarily that his compassionate release waiver is unenforceable as a matter of contract law because it contravenes public policy and is unconscionable. 4 In
support, Bridgewater cites United States v. Osorto, 445 F. Supp.
3d 103, 105 (N.D. Cal. 2020), in which Judge Charles Breyer
rejected a plea agreement that contained a compassionate release waiver. He wrote that such a waiver “undermines Congressional intent and is an unconscionable application of a
federal prosecutor's enormous power to set the terms of a plea
agreement.” Id.
We respectfully disagree, but we note that the issue in
Osorto arose in a diﬀerent way, and the procedural diﬀerence
is important. In this case, the district court had approved and
implemented the plea agreement. Bridgewater had already
received substantial beneﬁts under that agreement. Judge
Breyer rejected a proposed waiver in Osorto, relying on a district judge’s “broad discretion to accept or reject a proposed
4

As an initial matter, it remains undecided in this circuit whether plea
provisions are even subject to public policy and unconscionability challenges in the same way that other contracts are. The Second Circuit has
said they are. See United States v. Ready, 82 F.3d 551, 559 (2d Cir. 1996),
superseded on other grounds by United States v. Cook, 722 F.3d 477, 481
(2d Cir. 2013). A divided panel of the D.C. Circuit recently joined this view
in Price v. Dep’t of Justice, 865 F.3d 676 (D.C. Cir. 2017), where it held that
plea provisions must serve legitimate criminal-justice interests that outweigh any public policy concerns in enforcing such provisions. See 865
F.3d at 681, 683. We have not explicitly adopted such a rule. While plea
agreements are “usefully viewed through the lens of contract law,”
Bownes, 405 F.3d at 636, we have repeatedly said that they are enforceable
so long as they are entered into “knowingly and voluntarily.” See, e.g.,
Smith, 759 F.3d at 706.

15a

Case: 20-2413

Document: 30

Filed: 04/28/2021

16

Pages: 22

No. 20-2413

plea agreement.” Id. at 104; see Fed. R. Crim. P. 11(c)(3). Here,
Judge Yandle accepted Bridgewater’s plea agreement back in
2019 and acted accordingly. Our issue is whether the waiver
term of the agreement can now be enforced after Bridgewater
has received the beneﬁts of the agreement. So while we disagree with Osorto’s analysis of the public policy and unconscionability issues concerning compassionate release waivers,
we do not address here the scope of a district judge’s discretion to reject the terms of a proposed plea agreement in the
ﬁrst instance.
Regarding public policy, Osorto concluded that a compassionate release waiver undermines congressional intent because it “neatly undoes Congress’s work” and “restores the
very obstacles the First Step Act removed.” 445 F. Supp. 3d at
108. As to unconscionability, Osorto said that compassionate
release waivers are “appallingly cruel” because they permanently stiﬂe defendants’ ability to seek relief in “tragically unforeseeable” circumstances in which continued imprisonment
no longer serves any penological purpose. Id. at 109. This left
Judge Breyer asking: “why? Why would federal prosecutors
exercise the tremendous discretion entrusted to them with
such a lack of compassion?” Id. at 110.
We believe there is an answer to Osorto’s “why?”—one
that assures us that compassionate release waivers are at least
not so indefensible as to be inherently unconscionable or
against public policy. In short, the answer is that compassionate release waivers—like other appellate waivers—sacriﬁce
an opportunity for review in order to advance the government’s legitimate interest in ﬁnality and the eﬃcient use of
prosecutorial resources, and in exchange for some other beneﬁt that the defendant values more highly.

16a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

17

We disagree with Osorto’s assertion that Congress silently
intended the First Step Act’s new compassionate release right
to be non-waivable. The very nature of any waiver of a statutory right is that it “neatly undoes Congress’s work.” See id.
at 108. Nor is the First Step Act unusual in remedying a decades-long problem. New rights often address old problems.
Mezzanatto held in 1995 that such statutory rights are presumptively waivable, and that has been the rule ever since.
When Congress passed the First Step Act in 2018, it was certainly on notice of the legal eﬀect of its silence as to waiver.
Until Congress says otherwise, the better course is to allow
defendants to waive this new right for something they value
more in return. “Often a big part of the value of a right is what
one can get in exchange for giving it up.” United States v. Barnett, 415 F.3d 690, 692 (7th Cir. 2005).
Beyond congressional intent, Osorto’s broader policy and
unconscionability concerns do not persuade us to void compassionate release waivers in approved plea agreements.
Those concerns are twofold. First, Osorto suggests that there
is no legitimate prosecutorial reason for compassionate release waivers. Second, a defendant waives the right to seek
compassionate release at a time when he cannot foresee it becoming salient. But if and when it later does, it becomes extremely salient, and he is then trapped in promises made by
his earlier, less desperate self.
We recognize the humane foundation for the second concern. But we enforce waivers in other scenarios presenting
similar concerns, such as when defendants waive future appeals that may be based on unforeseen changes to Supreme
Court precedent or the Sentencing Guidelines. See above, Part
IV-A, discussing McGraw, 571 F.3d at 631, and Smith, 759 F.3d

17a

Case: 20-2413

Document: 30

Filed: 04/28/2021

18

Pages: 22

No. 20-2413

at 707. Moreover, defendants who waive their First Step Act
rights can still petition the Bureau of Prisons for compassionate release. That provides a safety valve, albeit one not in the
control of the defendant.
As to the ﬁrst concern about legitimate prosecutorial interests, Osorto presented the issue as if every motion for compassionate release were meritorious. If that were true, there
might be no valid reason to keep defendants from ﬁling such
motions. But as with other appeals, not all are meritorious or
even plausible. During the pandemic alone, we have aﬃrmed
many denials of compassionate release. So on the other side
of the ledger there are legitimate prosecutorial interests in efﬁciency and ﬁnality that weigh against the interest in allowing defendants to petition directly for modiﬁcation.
Town of Newton v. Rumery, 480 U.S. 386 (1987), is instructive on this point. In that case, the Supreme Court assessed the
enforceability of “release-dismissal agreements” in which an
accused defendant releases his right to ﬁle a civil § 1983 action
in return for the dismissal of criminal charges against him. 480
U.S. at 389. Rumery argued that his release-dismissal agreement was contrary to public policy and unconscionable. The
Court, however, rejected those arguments. It held that releasedismissal agreements are not per se unenforceable and instead
should be assessed case by case. Critically, the Court generally upheld the enforceability of release-dismissal agreements
based on the same eﬃciency and ﬁnality interests that we see
here:
[A] per se rule of invalidity fails to credit other
relevant public interests … . No one suggests
that all such suits are meritorious. Many are
marginal and some are frivolous. Yet even when

18a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

19

the risk of ultimate liability is negligible, the
burden of defending such lawsuits is substantial. … This diversion of oﬃcials from their normal duties and the inevitable expense of defending even unjust claims is distinctly not in
the public interest. To the extent release-dismissal agreements protect public oﬃcials from the
burdens of defending such unjust claims, they
further this important public interest.
Rumery, 480 U.S. at 395–96 (plurality opinion); id. at 399–400
(O’Connor, J., concurring) (same).
These interests in eﬃcient resource allocation and ﬁnality
apply to compassionate release motions under the First Step
Act. There is no obvious limit on how many motions a defendant can ﬁle. The statutory standard, “extraordinary and
compelling reasons,” is ﬂexible and can be interpreted expansively by incarcerated people seeking modiﬁcations. Nor are
there obvious limits on information that a district court may
consider in deciding such a motion. A motion for compassionate release thus creates the prospect that all sentencing factors
under § 3553(a) could be in play, updated from the original
sentencing. Cf. Pepper v. United States, 562 U.S. 476, 489 (2011)
(in case of resentencing after appellate reversal, stressing “traditional discretion of sentencing courts to ‘conduct an inquiry
broad in scope, largely unlimited either as to the kind of information [they] may consider, or the source from which it
may come.’”), quoting United States v. Tucker, 404 U.S. 443, 446
(1972). Accordingly, as with appellate waivers, compassionate release waivers can serve legitimate interests. There are
certainly important and humane interests on the other side.
But the competing interests persuade us that knowing and

19a

Case: 20-2413

Document: 30

Filed: 04/28/2021

20

Pages: 22

No. 20-2413

voluntary compassionate release waivers are not so cruel or
unreasonable as to render them unconscionable.
Compassionate release waivers also do not present the
concerns that made Rumery a close case. Rumery recognized
that release-dismissal agreements create conﬂicts of interest
that can motivate prosecutors and police to engage in unethical and illegal conduct. First, a suspect’s ability to waive
§ 1983 claims reduces the legal incentives that discourage police oﬃcers from violating a suspect’s constitutional rights.
Second, once a constitutional violation occurs, the natural desire to avoid liability “may tempt prosecutors to bring frivolous charges, or to dismiss meritorious charges, to protect the
interests of other oﬃcials.” Rumery, 480 U.S. at 395 (plurality
opinion). In fact, “the prosecutor's interest in obtaining a covenant not to sue will be strongest in those cases in which he
realizes that the defendant was innocent and was wrongfully
accused.” Id. at 409 (Stevens, J., dissenting). Hence, “[t]he central problem with the release-dismissal agreement is that public criminal justice interests are explicitly traded against the
private ﬁnancial interest of the individuals involved in the arrest and prosecution.” Id. at 401 (O’Connor, J., concurring).
These corrupting inﬂuences are not present with compassionate release waivers. Prosecutors may be motivated to reduce litigation but would have no reason to expect these
waivers could shield their own abuses or those of police.
Compassionate release waivers by their very nature aﬀect unforeseen circumstances that arise long after the prosecution
and police’s interactions with the defendant.
Compassionate release waivers are also more defensible
than the plea waiver invalidated in Price v. Dep’t of Justice, 865
F.3d 676 (D.C. Cir. 2017). In Price, the D.C. Circuit held that a

20a

Case: 20-2413

Document: 30

Filed: 04/28/2021

No. 20-2413

Pages: 22

21

defendant’s waiver of Freedom of Information Act rights in a
plea agreement was unenforceable as against public policy. In
reaching that conclusion, Price emphasized that FOIA waivers
can prevent defendants from uncovering ﬁles that reveal ineﬀective assistance of counsel or prosecutorial misconduct in
their cases. 865 F.3d at 682. So, unlike compassionate release
waivers, FOIA waivers could undercut defendants’ non-waivable right to eﬀective counsel during plea negotiations. Id.
Moreover, like release-dismissal agreements, FOIA waivers
raise concerns about shielding government abuse that simply
do not apply to compassionate release waivers.
Finally, in this case, the fact that Bridgewater has already
reaped the beneﬁts of his plea agreement bolsters our conclusion that it is not unconscionable to enforce his waiver. In return for his waiver and other promises in his agreement,
Bridgewater received a substantial beneﬁt—dismissal of a
charge that carried a ten-year mandatory minimum sentence.
Now that the government has delivered on the substantial
beneﬁts it promised him, it is not unconscionable to hold
Bridgewater to his end of the bargain. In the end, Bridgewater
“wants the beneﬁts of the existing agreement but not the principal detriment.” United States v. Wenger, 58 F.3d 280, 283 (7th
Cir. 1995). “That is the one outcome that would be most destructive of the plea agreement process. Defendants must take
the bitter with the sweet.” Id.
Conclusion
A district court has discretion to approve and enforce a
knowing and voluntary plea agreement that waives the defendant’s right to seek compassionate release under the First
Step Act. Bridgewater’s waiver was knowing and voluntary,

21a

Case: 20-2413

Document: 30

Filed: 04/28/2021

22

Pages: 22

No. 20-2413

and he has already received a substantial beneﬁt under the
agreement. His appeal is DISMISSED

22a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#732

Filed 07/17/20 Page 1 of 10 Page ID

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF ILLINOIS

UNITED STATES OF AMERICA,
Plaintiff,
vs.
DAVID A. BRIDGEWATER,
Defendant.

)
)
)
)
)
)
)
)
)

Case No. 19-CR-40012-SMY
***FILED UNDER SEAL***

SEALED ORDER
YANDLE, District Judge
Pending before the Court is Defendant David A. Bridgewater’s “Second Emergency
Motion for Reduction in Sentence Pursuant to 18 U.S.C. § 3582(c)(1)(A) as Amended by the First
Step Act of 2018” (“Motion for Compassionate Release”) (Doc. 66) to which the Government
objected (Doc. 69). The Court conducted a hearing on the Motion on May 11, 2020. Defendant
was granted leave to file a Supplement (Doc. 74) to which the Government responded (Doc. 76).
For the following reasons and those stated on the record, the Motion is DENIED.
Background
David Bridgewater pled guilty to soliciting an obscene depiction of a minor in violation of
18 U.S.C. § 2522A(3)(B) on March 19, 2019 (Doc. 29). He was sentenced on July 23, 2019 to 78
months imprisonment, 7 years of supervised release, a $150 fine, and a $100 special assessment
(Doc. 41). Bridgewater’s appeal was denied, and the Mandate was issued on March 12, 2020
(Doc. 56). Bridgewater is currently incarcerated at FCI-Forest City Low. He asserts that the
conditions at the prison put him at a significant risk of contracting COVID-19 and that he has
multiple health conditions that put him at a high risk of suffering severe complications, including
death, should he contract the virus, including HIV, asthma, high blood pressure, high cholesterol,
Page 1 of 10

23a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#733

Filed 07/17/20 Page 2 of 10 Page ID

obesity, diabetes, and skin cancer.
Bridgewater’s initial motion for compassionate release, filed with this Court on April 3,
2020 (Doc. 57), was denied for his failure to exhaust administrative remedies (Doc. 65). He
subsequently submitted a compassionate release request to FCI-Forest City’s warden (on April 14,
2020) and received notice on April 29, 2020 that his request was denied (Doc. 76-1).
Discussion
Section 603 (b)(1) of the First Step Act permits the Court to reduce a term of imprisonment
upon motion of either the Director of the Bureau of Prisons (“BOP”) or a defendant for
“extraordinary or compelling reasons” so long as the reduction is “consistent with applicable
policy statements issued by the Sentencing Commission.” 18 U.S.C. § 3582(c)(1)(A)(i). A
defendant seeking compassionate release must first request that the BOP file a motion seeking the
same. Id. If the BOP declines to file a motion, the defendant may file a motion on his own behalf,
provided he has either exhausted administrative remedies or 30 days have elapsed since the warden
at his institution received such a request, whichever is earliest. Id.
Bridgewater received a denial of his request for compassionate release from the warden,
and the Government makes no argument that he has failed to exhaust his administrative remedies.
The Government does, however, argue that the Court cannot grant his request for compassionate
release under the statutory scheme of the First Step Act.
The Government contends that in determining whether extraordinary and compelling
circumstances exist for granting Bridgewater compassionate release, the Court is statutorily
required to apply the policy statements articulated in U.S.S.G. § 1B1.13 and its commentary “as
written, without modification.” The Court disagrees and summarily rejects the Government’s
argument on this point.

Page 2 of 10

24a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#734

Filed 07/17/20 Page 3 of 10 Page ID

18 U.S.C. § 3582(c)(1)(A) requires that any sentence reduction be “consistent” with any
“applicable” policy statements issued by the United States Sentencing Commission. But as
correctly noted in United States v. Beck, 425 F.Supp.3d 573 (M.D.N.C. 2019):
There is no policy statement applicable to motions for compassionate release filed by
defendants under the First Step Act. By its terms, the old policy statement applies to
motions for compassionate release filed by the BOP Director and makes no mention of
motions filed by defendants…While the old policy statement provides helpful guidance,
it does not constrain the Court’s independent assessment of whether “extraordinary
and compelling reasons” warrant a sentence reduction under § 3582(c)(1)(A)(i)…
Thus, courts may, on motions by defendants, consider whether a sentence reduction is
warranted for extraordinary and compelling reasons other than those specifically identified
in the application notes to the old policy statement.
Beck at 579-580 (emphasis added).
Although U.S.S.G. § 1B1.13 does not constrain this Court’s consideration of whether
extraordinary and compelling reasons warrant Bridgewater’s release, his plea agreement with the
Government does. Bridgewater pled guilty to soliciting an obscene visual depiction of a minor
pursuant to a written plea agreement which provides in relevant part:
[I]n exchange for the recommendations and concessions made by
the United States in this Plea Agreement, Defendant knowingly
and voluntarily waives the right to seek modification of or
contest any aspect of the conviction or sentence in any type of
proceeding, including the manner in which the sentence was
determined or imposed, that could be contested under Title 18 or
Title 28, or under any other provision of federal law (Doc. 32, ¶
V,4) (emphasis original).
The Government, relying on United States v. Soto-Ozuna, 2017 WL 1100604, 68 F. App’x
527, 528 (7th Cir. 2017), argues that based on this language, Bridgewater waived his right to seek
a sentence reduction and compassionate release. In Soto-Ozuna, the defendant pled guilty to
conspiracy to possess with intent to distribute 50 grams or more of methamphetamine. Id. He
signed a plea agreement in which he waived his right to appeal or otherwise contest his conviction
or sentence, or to “seek to modify his sentence or the matter in which it was determined in any
Page 3 of 10

25a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#735

Filed 07/17/20 Page 4 of 10 Page ID

type of proceeding.” Id. (emphasis added). The defendant later moved for a sentence reduction,
which was denied by the district court.
On appeal, the Seventh Circuit noted that it has refused to extend broad appellate waivers
in plea agreements to § 3582(c)(2) motions where the plea agreement stated only that the defendant
waived his right to “appeal [his] sentence” or to “contest [his] sentence or the manner that it was
determined in any post-conviction proceeding” or “collateral attack.” Id, citing United States v.
Woods, 581 F.3d 531, 533, 536 (7th Cir. 2009) overruled on other grounds by United States v.
Taylor, 778 F.3d 667, 669 (7th Cir. 2015); United States v. Monroe, 580 F.3d 552, 555–56, 559
(7th Cir. 2009). However, the court found that Soto-Ozuna knowingly and voluntarily entered into
the plea agreement, that the terms of his waiver were express and unambiguous, and concluded
that the language in the agreement barring him from seeking to “modify his sentence or the manner
in which it was determined in any type of proceeding” means exactly what it states; Soto-Ozuna
had waived his right to file a motion to modify his sentence. Id.
Here, as the Government points out, Bridgewater’s plea agreement contains a similar
waiver and agreement not to seek to modify his sentence in any type of proceeding under any
provision of federal law. Bridgewater argues, however, that the waiver is unenforceable because
as it relates to his right to seek compassionate release, it is unknowing, unconscionable, and
contrary to public policy. Specifically, Bridgewater contends that he did not knowingly and
voluntarily waive his right to seek compassionate release because at the time he entered into the
plea agreement, he could not have contemplated that a pandemic such as COVID-19 would
infiltrate the prison system and that BOP would not take proper precautions to protect those with
serious health conditions from contracting the virus. He further contends that he did not waive the

Page 4 of 10

26a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#736

Filed 07/17/20 Page 5 of 10 Page ID

right of proper medical treatment or to unnecessary, extended exposure to a life-threatening
disease.
At Bridgewater’s change of plea hearing, the undersigned conducted a Rule 11 plea
colloquy during which he confirmed that he had a sufficient opportunity to review and discuss
the terms of his plea agreement with his counsel before he signed it. The following exchange
occurred with respect to the waivers set forth in the Agreement, including Bridgewater’s waiver
of the right to seek any modification of his sentence:
7

Q. All right. And in terms of, finally, waiving your

8

appeal rights. Mr. Leggans mentioned certain waivers that

9

are part of the Plea Agreement. Did you specifically have

10

a chance to discuss those waivers with your attorney Miss

11

Day so that you understand what rights to appeal you are

12

actually waiving in exchange for the agreement?

13

A. Yes, ma'am.

(See ECF no. 53 at 10, Transcript of Plea Proceedings).
Thus, Bridgewater’s waiver was both knowing and voluntary. Obviously, when he
entered into the plea agreement in March 2019, no one – not Bridgewater, his counsel, the
Government or the undersigned – could have predicted that this world would be in the throes of
a global pandemic today. But implicit in the Seventh Circuit’s decision in Soto-Ozuna is the
proposition that express and unambiguous waivers are enforceable, even with respect to relief
not considered by the defendant or in existence at the time. While the defendant in Soto-Ozuna
was seeking a sentence reduction pursuant to a statutory amendment that had not been
effectuated at the time the plea agreement was executed, as the Government notes,
Bridgewater’s position is less compelling as The First Step Act of 2018 was in force when he
executed his plea agreement. See First Step Act of 2018, Pub L. No. 115-391, 132 Stat. 5194
Page 5 of 10

27a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#737

Filed 07/17/20 Page 6 of 10 Page ID

(Dec. 21, 2018). Bridgewater’s suggestion that a plea agreement must speculatively identify
every entitlement to relief that may factually or legally arise sometime in the future is simply
not supportable under Seventh Circuit precedent. His waiver does not carve out exceptions for
compassionate release motions, and he cannot rely on a change in circumstances, including
those occasioned by COVID-19, to invalidate it.
Citing United States v. Rodriguez, 424 F.Supp.3d 674, 683 n.4 (N.D. Cal. 2019),
Bridgewater further argues that no inmate waives the right to be treated properly by the BOP in
a plea agreement. While the Court agrees with the assertion, to the extent the Rodriguez court
(in a footnote) relied on that proposition to invalidate an express waiver not to seek a sentence
modification, it declines to follow that court’s decision. Bridgewater’s recourse for improper
medical treatment in the BOP is through 42 U.S.C. § 1983, not the First Step Act.
Alternatively, Bridgewater maintains that the waiver is unenforceable because it is
unconscionable and contrary to public policy. He argues that compassionate release waivers
interfere with legislative prerogative and undercut the public interests embodied in the First Step
Act. He also argues that a waiver of the right to seek compassionate release is oppressive and onesided because it requires an individual to waive relief that could save his life. These arguments
are unavailing.
The plea agreement was not at all one-sided or oppressive. Rather, it was the product of
negotiations that resulted in Bridgewater, represented by counsel, agreeing to waive some of his
constitutional rights in exchange for the government making concessions, including the dismissal
of a count that carried a statutory 10-year minimum sentence. Nor does enforcement of the plea
agreement override Congress’ legislative intent in passing the First Step Act. Defendants routinely
waive significant statutory and constitutional rights in plea agreements – a practice that has been
consistently upheld by federal courts at each level. “[T]he right to appeal is a statutory right, and
like other rights—even constitutional rights—which a defendant may waive, it can be waived in a
Page 6 of 10

28a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#738

Filed 07/17/20 Page 7 of 10 Page ID

plea agreement.” United States v. Feichtinger, 105 F.3d 1188, 1190 (7th Cir.1997). United States
v. Suggs, 374 F.3d 508, 519 (7th Cir. 2004). See also, United States v. Schmidt, 47 F.3d 188, 190
(7th Cir. 1995), citing Newton v. Rumery, 480 U.S. 386, 393 (1987).
The cases cited by Bridgewater in support of his position that a plea agreement waiver is
unenforceable if it conflicts with the First Step Act are non-precedential an unpersuasive. While
United States v. Brown, 411 F.Supp. 3d 446, 450-51 (S.D. Iowa 2019), briefly discusses
Congressional intent regarding the First Step Act, it did not involve the enforcement of a plea
agreement waiver. In the other case, United States v. Osorto, 2020 WL 232308 (N.D. Cal. May
11, 2020), a district court in the Northern District of California refused to accept a plea agreement
waiver that would have required the defendant to allow the BOP 180 days to resolve any motion
he might bring under the First Step Act. Id. at 4. While a district court may, in its discretion, reject
pleas agreements for any number of reasons, that court’s finding, presumably based on public
policy concerns, that a defendant should not be allowed to waive aspects of the protections afforded
by the First Step Act is an outlier and is inconsistent with the previously noted precedent permitting
defendants to waive even profound constitutional rights in a plea agreement.
Finally, Bridgewater argues that enforcement of the plea agreement waiver in the context
of motions seeking compassionate release will deter defendants from entering plea agreements and
result in post-conviction claims of involuntary pleas and ineffective assistance of counsel. The
Court acknowledges that possibility. But, for the above-stated reasons, Bridgewater’s waiver of
his right to seek any modification of his sentence is not unconscionable or against public policy; it
is enforceable. The Government has lived up to its end of the bargain and Bridgewater must do so
as well. The Court concludes that he has waived his right to seek compassionate relief under the

Page 7 of 10

29a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#739

Filed 07/17/20 Page 8 of 10 Page ID

First Step Act. 1 Nevertheless, in the interest of completeness, his substantive claim merits
discussion.
Bridgewater states that conditions at FCI Forest City Low make it impossible for inmates
such has himself to follow Center for Disease Control (“CDC”) guidelines to protect themselves
from contracting COVID-19. According to Bridgewater, since he filed his first motion for
compassionate release, the number of confirmed positive cases has increased in both the Forrest
City, Arkansas area and at FCI Forest City. In particular, on April 3, 2020 the BOP reported 75
inmates and 39 staff had tested positive for COVID-19. By April 28, 2020, the number had
increased to 1,314 inmates and 335 staff. On May 29, 2020, the Bureau of Prisons reported that
the number of confirmed active COVID-19 cases at FCI Forrest City Low had risen to 421
inmates and 1 staff member. (Doc. 79, citing Covid-19: Coronavirus, Federal Bureau of Prisons,
https://www.bop.gov/coronavirus/ May 29, 2020). 2 Also on May 29, 2020, Bridgewater’s
counsel received information from his family that his roommate tested positive for COVID-19
on that date. The prison then tested 11 inmates with whom the roommate had contact, including
Bridgewater. Seven (7) of those inmates tested positive; Bridgewater tested negative. Based on
these facts, Bridgewater contends that he is unnecessarily exposed to the virus and requests a
sentence reduction to time served and compassionate release.

1

Bridgewater’s counsel asserts that she did not inform him that he was waiving his right to seek compassionate release
when advising him regarding the plea agreement and requests that in the event the Court determines that his waiver is
enforceable (which it has), she be allowed to withdraw as counsel and that new counsel be appointed so that
Bridgewater can withdraw his guilty plea due to ineffective assistance of counsel. An attorney cannot be faulted for
failing to predict every change in the law or the coming of COVID-19 or any other global pandemic. On the other
hand, there’s no indication that Bridgewater was not advised that he was not only waiving his right to appeal his
conviction and sentence, but also his right to seek any modification of his sentence. As such, the Court declines
Counsel’s request.

2

As of the date of this Order, there are 27 inmates and 3 staff members who are positive with the virus. 648 inmates
and 3 staff members have recovered, and there have been no inmate or staff deaths attributable to the virus. See Covid19: Coronavirus, Federal Bureau of Prisons, https://www.bop.gov/coronavirus/ (July 17, 2020).

Page 8 of 10

30a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#740

Filed 07/17/20 Page 9 of 10 Page ID

While COVID-19 can have very serious detrimental effects on people with certain
underlying conditions, including Bridgewater’s pre-existing medical conditions, the medical
records indicate that he is receiving ongoing treatment for those conditions and that they are
controlled and stable. (See, Doc. 66-3). Bridgewater alleges that he was diagnosed with skin
cancer after arriving at the facility and that “his T-cell mark has fallen from 1,000 to 600.” Id. But
the medical records do not confirm that he suffers from skin cancer or support his allegation that
his T-Cell count has decreased in any significant way since he has been incarcerated. Id. at 3-5,
(Doc. 66-4). That said, there is no question but that, due to his medical conditions, Bridgewater is
at an increased risk to suffer severe complications should he contract COVID-19. In order to
determine whether that risk constitutes an extraordinary and compelling reason to grant him the
requested sentencing reduction, the Court must weigh it against its consideration of the 18 U.S.C.
§ 3553(a) factors.
Even giving due consideration to Bridgewater’s exposure to risks associated with COVID19, the § 3553(a) factors weigh against his release. In sentencing Bridgewater, this Court varied
up from the applicable Guidelines range to account for the fact that the nature and circumstances
of his offense went beyond soliciting an obscene depiction of a minor. Although the Government
dismissed the count for attempted enticement of a minor pursuant to the plea agreement,
Bridgewater’s conduct in that regard impacted his ultimate sentence of 78 months of incarceration.
Moreover, given his specific conduct, the Court determined that a significant sentence was
warranted to serve the sentencing objectives of deterrence and protecting the public. See United
States v. David Bridgewater, 950, F. 3d 928 (7th Cir. 2020). That continues to be the Court’s
conclusion. In spite of his medical conditions and the risks associated with the coronavirus,
reducing Bridgewater’s term of imprisonment from 6 ½ years to just shy of 1 year would not reflect

Page 9 of 10

31a

Case 4:19-cr-40012-SMY Document 81 *SEALED*
#741

Filed 07/17/20 Page 10 of 10 Page ID

the seriousness of the offense, promote respect for the law, provide just punishment, foster specific
deterrence or protect the public from potential future crimes being committed by him. Therefore,
even if he had not waived his right to seek a modification of his sentence, denial of his motion
would be appropriate.
Conclusion
For the foregoing reasons, Defendant’s Second Emergency Motion for Reduction in
Sentence Pursuant to 18 U.S.C. § 3582 (c)(1)(A) as Amended by the First Step Act of 2018 (Doc.
66) is DENIED.
IT IS SO ORDERED.
DATED: July 17, 2020

STACI M. YANDLE
United States District Judge

Page 10 of 10

32a

